         TRIBAL AND OTHER TRUST FUNDS AND 

       INDIVIDUAL INDIAN MONIES TRUST FUNDS
	
  MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
	
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS 





                ANNUAL REPORT 2011
	
                    TRIBAL AND OTHER TRUST FUNDS AND 

                  INDIVIDUAL INDIAN MONIES TRUST FUNDS
	
            MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR 

           OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
	



                                      Table of Contents

                                                                                    Tab

Letter from the Special Trustee                                                      1

Tribal and Other Trust Funds Financial Statements                                    2

Individual Indian Monies Trust Funds Financial Statements                            3

Tribal and Other Trust Funds Independent Auditors’ Report on
    Internal Control Over Financial Reporting and on Compliance and Other Matters    4

Individual Indian Monies Trust Funds Independent Auditors’ Report on
    Internal Control Over Financial Reporting and on Compliance and Other Matters    5
                             United States Department of the Interior
                              Office of the Special Trustee for American Indians 

                                              Washington, DC 20240 





November 10, 2011



The fiscal year 2011 independent audit of Tribal and Other Trust Funds and Individual Indian
Monies Trust Funds financial statements for funds managed by the Office of the Special
Trustee for American Indians (OST) has been completed. I am pleased to present the findings
of the auditors.


The effort to manage the financial assets of tribal and Individual Indian Monies accounts is a
great responsibility and significant assets are involved. For example, in FY2011:


    >       $622.7 million was processed through the centralized commercial lockbox and
            87.9 percent was posted to beneficiaries' accounts within two days of receipt 

    /       $869 million was disbursed to tribal and individual Indian beneficiaries 

    >       758,000 periodic performance statements (showing sources of funds, encumbrance
            information, and listings of trust property owned) were mailed to beneficiaries


Every day, OST employees skillfully execute their duties in support of tribal and individual
Indian trust beneficiaries. Their work is guided by the OST mission statement - "to perform
our fiduciary trust responsibilities to American Indian tribes, individual Indians, and Alaska
Natives by incorporating a beneficiary focus and beneficiary participation while providing
effective, competent stewardship and management of trust assets."


As OST moves forward in FY2012, the focus will be to provide efficient and cost effective
beneficiary services; to collect, invest, disburse and accurately account for Indian trust funds;
to collaborate with other federal agencies to achieve operational efficiencies; and to partner
with other bureaus and offices within the Department of the Interior to fulfill the Department's
trust responsibility. OST is ready for the challenges ahead and looks forward to improving the
lives of beneficiaries by delivering on the government's promise to manage the financial assets
of the Indian trust.


Please do not hesitate to contact me about the audit and OST's work. I can be reached at
202-208-4866 or Ray_Joseph@ost.doi.gov.



BI:In. C/i1)((
        6
R ay J sepn
Principa Deputy Special Trustee
            /




                           1849 C Street,   NW, Room   26l3,   Washington,   DC 20240
                 OFFICE OF
                 INSPECTOR GENERAL
                 U.S.DEPARTMENT OFTHE INTERIOR

                                                                                   November 10, 2011


Memorandum


To: 	            Principal Deputy Special Trustee for American Indians


From: 	          Kimberly Elmore
                 Assistant Inspector General for Audits, Inspections, and Evaluations


Subject: 	       Independent Auditors' Report on the Tribal and Other Trust Funds and Individual
                 Indian Monies Trust Funds Financial Statements for FY2011 and FY20 I 0
                 (Report No. X-rN-OST-OOOS-2011)


Introduction


          This memorandum transmits the KPMG LLP's (KPMG) auditors' reports of the Office of
the Special Trustee for American Indians (OST) financial statements for fiscal years (FYs) 2011
and 20 I O. The OST financial reports contain financial statements and notes for Tribal and Other
Trust Funds (Tribal) and Individual Indian Monies Trust Funds (11M).


          The American Indian Trust Fund Management Reform Act of 1994 requires audits of the
Tribal and liM financial statements. Under a contract issued by OST and monitored by the
Office of Inspector General (OIG), KPMG, an independent public accounting finn, performed
audits of the OST FY2011 and FY2010 financial statements. The contract required that the
audits be performed in accordance with auditing standards generally accepted in the United
States of America and the "Government Auditing Standards" issued by the Comptroller General
of the United States.


Results of Independent Audit


          In the audit reports, dated November 10, 2011, KPMG issued qualified opinions on the
Tribal and lIM financial statements. KPMG was unable to satisfy themselves as to the fairness
of trust fund balances due to the effects of certain parties, for whom OST holds assets in trust,
disagreeing with the balances recorded by OST and/or having requested an accounting of their
trust funds, and of which certain of these parties have filed claims against the United States
Government.


Evaluation of KPMG Audit Performance


          To fulfill our monitoring responsibilities, the OIG:

             •
                 reviewed KPMO's approach and planning of the audits;
             •
                 evaluated the qualifications and independence of the auditors;




                                  Office of Inspector General   I Washington. DC
           •
               monitored the progress of the audits at key points;
           •
               attended periodic meetings with OST management and KPMG to discuss audit
               progress, findings, and recommendations;
           •
               reviewed KPMG's audit reports; and
           •
               performed other procedures we deemed necessary.


       KPMG is responsible for the attached auditors' reports dated November 10,2011, and the
conclusions expressed. We do not express an opinion on OST financial statements, internal
controls, or compliance with laws and regulations.


Report Distribution


       The legislation, as amended, creating the OIG requires semiannual reporting to Congress
on all audit reports issued, actions taken to implement audit recommendations, and
recommendations that have not been implemented. Therefore, we will include the information in
the attachment in our next semiannual report. The distribution of the report is not restricted, and
copies are available for public inspection.


       The OIG appreciates the courtesies and cooperation extended to KPMG and our staff
during this audit. !f you have any questions regarding the report, please contact Roy Mills at
202-208-5512.


Attachment




                                                 2
           TRIBAL AND OTHER TRUST FUNDS

 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                    Financial Statements


                September 30, 2011 and 2010

         (With Independent Auditors’ Report Thereon)

                                KPMG LLP
                                Suite 700
                                Two Park Square
                                6565 Americas Parkway NE
                                PO Box 3990
                                Albuquerque, NM 87190




                         Independent Auditors’ Report on Financial Statements


U.S. Department of the Interior Office of the Special Trustee
 for American Indians; and

U.S. Department of the Interior Office of Inspector General:

We have audited the accompanying statements of assets and trust fund balances – cash basis of the Tribal
and Other Trust Funds managed by the U.S. Department of the Interior Office of the Special Trustee for
American Indians (OST) as of September 30, 2011 and 2010, and the related statements of changes in trust
fund balances – cash basis for the years then ended. These financial statements are the responsibility of
management of OST. Our responsibility is to express an opinion on these financial statements based on our
audits.

Except as discussed in the fourth paragraph of this report, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of internal control
over financial reporting of the Tribal and Other Trust Funds managed by OST. Accordingly, we express no
such opinion. An audit also includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements, assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

As described in note 2, these financial statements were prepared on the cash basis of accounting, which is a
comprehensive basis of accounting other than generally accepted accounting principles.

It was not practicable to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of
trust fund balances in the accompanying financial statements as of September 30, 2011 and 2010 due to the
effects of certain parties for whom OST holds assets in trust disagreeing with balances recorded by OST
and/or having requested an accounting of their trust funds, and of which certain of these parties have filed
claims against the United States Government. Trust fund balances enter into the determination of financial
position and changes in trust fund balances.

In our opinion, except for the effects on the financial statements of such adjustments, if any, as might have
been determined to be necessary had we been able to apply adequate procedures to determine the fairness
of trust fund balances and related changes in trust fund balances, as discussed in the preceding paragraph,
the financial statements referred to in the first paragraph above present fairly, in all material respects, the
financial position of the Tribal and Other Trust Funds managed by OST as of September 30, 2011 and
2010, and the changes in trust fund balances for the years then ended in conformity with the basis of
accounting described in note 2.

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
In accordance with Government Auditing Standards, we have also issued our report dated November 10,
2011 on our consideration of internal control over financial reporting and on our tests of compliance with
certain provisions of applicable laws and regulations for the Tribal and Other Trust Funds managed by
OST. The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 10, 2011




                                                 2

                             TRIBAL AND OTHER TRUST FUNDS
                   MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                  OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                             Statements of Assets and Trust Fund Balances – Cash Basis
                                            September 30, 2011 and 2010
                                                   (In thousands)


                                   Assets                                        2011        2010
Cash and cash equivalents (note 3)                                        $       881,998     526,516
Investments (note 4)                                                            2,341,379   2,574,319
              Total assets                                                $     3,223,377   3,100,835
                        Trust Fund Balances
Held for Indian tribes (notes 7 and 9)                                    $     2,918,764   2,795,781
Held by the Department of the Interior and considered to be
  U.S. Government funds (note 7)                                                 304,613     305,054
              Total trust fund balances                                   $     3,223,377   3,100,835


See accompanying notes to financial statements.




                                                        3

                             TRIBAL AND OTHER TRUST FUNDS
                   MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                  OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                          Statements of Changes in Trust Fund Balances – Cash Basis
                                   Years ended September 30, 2011 and 2010
                                                     (In thousands)


                                                                              2011        2010
Increases:
   Receipts                                                           $       500,131     413,032
   Interest received on invested funds                                        103,921     118,441
   Gain on disposition of investments, net                                      4,886         759
                                                                              608,938     532,232
Decreases:
  Disbursements to and on behalf of Indian tribes and other trust
     funds and withdrawal of trust funds by Indian tribes (note 9)           (486,396)   (529,026)
              Increase in trust fund balances, net                            122,542       3,206
Trust fund balances, beginning of year                                       3,100,835   3,097,629
Trust fund balances, end of year (notes 7 and 9)                      $      3,223,377   3,100,835


See accompanying notes to financial statements.




                                                          4

                              TRIBAL AND OTHER TRUST FUNDS

                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                          Notes to Financial Statements

                                          September 30, 2011 and 2010 




(1)   Background and Description of the Trust Funds
      (a)   Overview of the Trust Funds
            Establishment and Management of the Trust Funds – The legislation that authorizes the
            Secretary of the United States Department of the Interior (Secretary) to manage the Tribal and Other
            Trust Funds recognizes the unique trust relationship that exists between the Indian tribes, individual
            Indians, and the United States Government (U.S. Government). Agreements between the
            U.S. Government and the various Indian tribes, many of these in the form of treaties, recognize the
            sovereignty of tribes. During the course of the United States’ history and the U.S. Government’s
            evolving policies toward Indian tribes, the trust relationship has retained characteristics based upon
            tribal sovereignty. The United States Congress has designated the Secretary as the trustee delegate
            with responsibility for the financial and nonfinancial resources held in trust on behalf of American
            Indian tribes, individual Indians, and other trust funds. In carrying out the management and oversight
            of the Indian trust assets, the Secretary has a fiduciary responsibility to ensure monies are received
            for the use of Indian lands and the extraction of natural resources from Indian lands, distribute such
            monies collected to the appropriate beneficiaries, ensure that trust accounts are properly maintained
            and invested, and ensure that accurate and complete reports are provided to the trust beneficiaries in
            accordance with applicable law.

            The balances that have accumulated in the Tribal and Other Trust Funds have resulted generally
            from judgment awards, settlement of claims, land use agreements, royalties on natural resource
            depletion, other proceeds derived directly from trust resources, and investment income.

            The accompanying financial statements include only the financial assets held in trust by the Office of
            the Special Trustee for American Indians (OST) for trust beneficiaries and do not include: (i) the
            operating account balances of OST (e.g., Fund Balance with Treasury; Property, Plant, and
            Equipment; etc.) or (ii) other Indian trust assets, including but not limited to, Indian lands, buildings,
            or other nonfinancial assets managed by the United States Department of the Interior
            (the Department).

            The Reform Act – The American Indian Trust Fund Management Reform Act of 1994
            (Public Law 103-412) (the Reform Act) authorized the establishment of OST, which is headed by the
            Special Trustee for American Indians (Special Trustee) who reports to the Secretary. Under this
            legislation, the Special Trustee is responsible for oversight, reform, and coordination of the policies,
            procedures, systems, and practices used by various bureaus and offices of the Department, including
            but not limited to OST, the Bureau of Indian Affairs (BIA) (a component of Indian Affairs (IA)), the
            Office of Natural Resources Revenue (ONRR) (formerly, Minerals Management Service/Minerals
            Revenue Management Program), and the Bureau of Land Management (BLM), in managing Indian
            trust assets.

            Office of the Special Trustee for American Indians – Indian trust assets, including the Tribal and
            Other Trust Funds, are primarily managed under the delegated authority of OST and BIA.
            Management of Indian trust assets on behalf of the trust beneficiaries is dependent upon the
            processing of trust-related transactions within certain information systems of the Department,

                                                         5                                                (Continued)
                         TRIBAL AND OTHER TRUST FUNDS

               MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

              OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                     Notes to Financial Statements
                                     September 30, 2011 and 2010



       including but not limited to OST, BIA, ONRR, and other Departmental bureaus and offices. BIA and
       other Departmental bureaus and offices are responsible for managing the natural resources located
       within the boundaries of Indian reservations and trust lands, as well as the processing of data
       regarding the ownership and leasing of Indian lands. The allocation of receipts and disbursements by
       OST to trust beneficiaries are significantly dependent and reliant upon the receipt of timely and
       accurate information derived from records maintained by BIA, ONRR, and other Departmental
       bureaus and offices (see note 8).

       Regional Offices – OST and BIA maintain staff at regional offices located throughout the United
       States.

       Agency and Field Offices – OST and BIA also maintain staff at agency and field offices located
       throughout the United States, which are generally located near the tribes and individual Indians
       served. OST and BIA personnel located at most of the agency and field offices perform various
       functions related to trust fund activities.

(b)	   Description of the Trust Funds
       Certain of the Tribal and Other Trust Funds are subject to legal, regulatory, budgetary, court-ordered,
       or other restrictions (see note 7). A brief description of the Tribal and Other Trust Funds follows:

       •	    Tribal Trust Funds – As of September 30, 2011 and 2010, approximately 2,900 and
             2,800 accounts, respectively, comprise the Tribal Trust Funds, which totaled approximately
             $2,918,764,000 and $2,795,781,000, respectively.

             Tribal Trust Funds realize receipts from a variety of sources, including judgment awards,
             settlement of claims, land use agreements, royalties on natural resource depletion, other
             proceeds derived directly from trust resources, and investment income.

       •	    Other Trust Funds – Other Trust Funds are comprised of those funds classified as Held by
             the Department of the Interior and considered to be U.S. Government funds (see note 7). Other
             Trust Funds totaled approximately $304,613,000 and $305,054,000 as of September 30, 2011
             and 2010, respectively.

             Other Trust Funds realize receipts from a variety of sources including leases, rights-of-way,
             judgment awards, settlement of Indian claims, donations and bequests, and investment income.

(c)	   Investment of Trust Funds
       Authorizing legislation and a substantial body of case law specify how Indian trust funds should be
       managed and which financial instruments constitute appropriate investments for Indian trust funds.
       The Tribal and Other Trust Funds are invested in U.S. Government securities, including
       U.S. Department of the Treasury (U.S. Treasury) issues, U.S. Government agency issues, and
       U.S. Government-sponsored entity issues.



                                                   6	                                             (Continued)
                              TRIBAL AND OTHER TRUST FUNDS

                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                          Notes to Financial Statements

                                          September 30, 2011 and 2010 




(2)   Summary of Significant Accounting Policies
      (a)   Basis of Accounting
            OST uses the cash basis of accounting for the Tribal and Other Trust Funds, which is a
            comprehensive basis of accounting other than generally accepted accounting principles. The cash
            basis of accounting differs from generally accepted accounting principles in that receivables and
            payables are not accrued and premiums and discounts on investments are not amortized or accreted.
            Receipts are recorded when received and disbursements are recorded when issued. Investments are
            stated at historical cost. Interest received on invested funds reported in the statements of changes in
            trust fund balances reflects interest received during the fiscal year.

      (b)   Cash and Cash Equivalents
            Management considers all highly liquid financial instruments with maturities of three months or less
            when purchased to be cash equivalents.

      (c)   Investments
            Investment securities at September 30, 2011 and 2010 consist of U.S. Treasury issues,
            U.S. Government agency issues, and U.S. Government-sponsored entity issues. Investment securities
            are recorded at historical cost. Investment income is recognized when received.

            The Tribal and Other Trust Funds are invested in U.S. Government securities, as mandated by
            25 USC 162a.

      (d)   Fair Value Measurements
            Financial Accounting Standards Board’s Accounting Standards Codification (ASC) Topic 820, Fair
            Value Measurements and Disclosures (ASC Topic 820), establishes an authoritative definition of fair
            value, sets out a framework for measuring fair value, and requires additional disclosures about fair
            value measurements. ASC Topic 820 applies only to fair value measurements already required or
            permitted by other accounting standards and does not impose requirements for additional fair value
            measures. Since the Tribal and Other Trust Funds use the cash basis of accounting (see note 2(a)),
            ASC Topic 820 only affects note disclosures related to fair value.

      (e)   Receipts
            Receipts from various leasing activities, mineral royalties and sales of extracted minerals, timber and
            other forest products, fees and fines, and the granting of easements are generated from a variety of
            nonfinancial assets that are held in trust by the U.S. Government and managed by BIA and other
            Departmental bureaus and offices on behalf of tribes. Receipts on hand at the regional and agency
            offices, and/or in-transit at September 30, 2011 and 2010, if any, awaiting deposit to the
            U.S. Treasury, are not included in the accompanying financial statements.

            Receipts also include payments from the U.S. Government for judgment awards and the settlement
            of claims.

                                                        7                                              (Continued)
                              TRIBAL AND OTHER TRUST FUNDS

                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                          Notes to Financial Statements
                                          September 30, 2011 and 2010



      (f)   Disbursements
            Payments disbursed from the Tribal and Other Trust Funds consist of accumulations of funds from
            various income-producing activities such as leasing, royalty receipts, minerals extraction, timber and
            other forest product sales, judgment awards, settlement of claims, and investment income. Under
            certain conditions, tribes disburse or authorize disbursement of per capita payments to their enrolled
            members.

            Public Law 103-412 specifically allows for the voluntary withdrawal of judgment awards and
            settlement of claims funds from the Tribal and Other Trust Funds. Except where prohibited by
            statute, an Indian tribe may submit a plan to withdraw some or all funds held in trust for the tribe in
            accordance with 25 CFR 1200.

      (g)   Use of Estimates
            The preparation of the financial statements and footnotes requires management to make estimates
            and assumptions that affect the reported amounts of assets at the date of the financial statements and
            the reported amounts of increases and decreases in trust fund balances during the reporting period.
            Actual results could differ from those estimates.

      (h)   Subsequent Events
            Subsequent events are evaluated by management through the date that the financial statements are
            available to be issued, which is November 10, 2011.

(3)   Cash and Cash Equivalents
      Cash equivalents of approximately $857 million and $523 million at September 30, 2011 and 2010,
      respectively, consist primarily of overnight investments with the U.S. Treasury.




                                                        8                                              (Continued)
                               TRIBAL AND OTHER TRUST FUNDS

                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                        Notes to Financial Statements

                                        September 30, 2011 and 2010 




(4)   Investments
      The historical cost, gross unrealized holding gains, gross unrealized holding losses, and fair value of
      investment securities by major class of security at September 30 were as follows (amounts exclude
      investments discussed in note 3):
                                                                                      Gross
                                                                   Gross            unrealized
                                                 Historical      unrealized          holding
                                                    cost        holding gains         losses      Fair value
                                                                         (In thousands)

      At September 30, 2011:
         U.S. Treasury and agency
           securities                        $    1,832,690           87,241              (813)     1,919,118
         U.S. government entity
           issued mortgage-backed
           securities                               508,689           29,999               (13)      538,675
                                             $    2,341,379          117,240              (826)     2,457,793

      At September 30, 2010:
         U.S. Treasury and agency
           securities                        $    2,128,385           86,763            (1,252)     2,213,896
         U.S. government entity
           issued mortgage-backed
           securities                               445,934           29,537               (11)      475,460
                                             $    2,574,319          116,300            (1,263)     2,689,356


      The investments above held by the Tribal and Other Trust Funds at September 30, 2011 and 2010 consist
      of fixed income securities, some of which are mortgaged-backed debt securities, issued by the
      U.S. Treasury, U.S. Government agencies, or U.S. Government-sponsored entities. All of these securities
      are either explicitly or implicitly backed by the U.S. Government. Given the backing by the
      U.S. Government, current market conditions have not had a significant adverse impact on the fair value of
      these securities.




                                                      9                                            (Continued)
                              TRIBAL AND OTHER TRUST FUNDS

                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                          Notes to Financial Statements
                                          September 30, 2011 and 2010



      Maturities of investment securities were as follows at September 30, 2011:
                                                                               Historical cost      Fair value
                                                                                         (In thousands)
      Due in one year or less                                              $         81,478                84,330
      Due after one year through five years                                         268,700               289,017
      Due after five years through ten years                                        283,909               307,858
      Due after ten years                                                         1,707,292             1,776,588
                                                                           $      2,341,379             2,457,793


(5)   Fair Value Disclosure Measurements
      ASC Topic 820 defines fair value as the price that would be received from the sale of an asset or paid to
      transfer a liability (an exit price) in an orderly transaction between market participants on the measurement
      date in the principal or most advantageous market for the asset or liability. For measuring fair value,
      ASC Topic 820 establishes a hierarchy that places the highest priority on unadjusted quoted market prices
      in active markets for identical assets or liabilities (Level 1 measurements), and the lowest priority on
      unobservable inputs (Level 3 measurements). The three levels of inputs within the fair value hierarchy are
      defined as follows:

            Level 1: Quoted prices (unadjusted) for identical assets or liabilities in active markets that the Tribal
            and Other Trust Funds have the ability to access as of the measurement date.

            Level 2: Significant other observable inputs other than Level 1 prices such as quoted prices for
            similar assets or liabilities; quoted prices in markets that are not active; or other inputs that are
            observable or can be corroborated by observable market data.

            Level 3: Significant unobservable inputs that reflect the Tribal and Other Trust Funds’ own
            assumptions about the assumptions that market participants would use in pricing an asset or liability.

      In many cases, a valuation technique used to measure fair value includes inputs from multiple levels of the
      fair value hierarchy. The lowest level of significant input determines the placement of the entire fair value
      measurement in the hierarchy.

      The carrying value of cash and cash equivalents reflected in the statements of assets and trust fund
      balances approximates fair value, which is valued using Level 1 inputs.

      All of the investment securities held by the Tribal and Other Trust Funds at September 30, 2011 and 2010
      are valued using Level 2 inputs. The fair value of investment securities disclosed in note 4 represents the
      best estimate of prices that the securities could be sold for in the open market as of September 30, 2011 and
      2010. Those fair values are measured using pricing services, pricing models, or broker quotes. Inputs into
      the pricing models include the securities’ par values, interest rates and maturity dates. If broker quotes are
      used to value investment securities the fair value is estimated as the average of three broker quotes.

                                                        10                                               (Continued)
                               TRIBAL AND OTHER TRUST FUNDS

                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                           Notes to Financial Statements

                                           September 30, 2011 and 2010 




       The fair value methods described above may produce fair value disclosures that may not be indicative of
       net realizable value or reflective of future fair values. Furthermore, while management believes that the
       valuation methods used on the Tribal and Other Trust Funds are appropriate and consistent with other
       market participants, the use of different methodologies or assumptions to determine the disclosed fair value
       of investment securities could result in a different fair value measurement at the reporting date.

(6)	   Contingencies
       Certain Indian tribes for whom OST holds assets in trust do not agree with balances recorded by OST
       and/or have requested an accounting of their trust funds, and certain of these Indian tribes have filed claims
       against the U.S. Government for failure to fulfill its fiduciary responsibilities and for other related items.
       At September 30, 2011, eighty-seven tribal trust cases were pending in various federal district courts and
       the U.S. Court of Federal Claims. As of November 10, 2011, six of these cases were dismissed and one has
       been settled, which was received into the trust funds on November 7, 2011. The cases involve claims for
       breaches of trust concerning the Government’s management of funds, and natural resources asset
       mismanagement. The relief sought in these cases range from declaratory and injunctive relief to perform an
       accounting, money damages, and other unspecified declaratory injunctive, or equitable, relief. In many of
       the cases pending in district courts, the Government contends that those courts do not have jurisdiction to
       grant monetary relief. A substantial number of the cases are stayed in lieu of settlement negotiations or
       alternative dispute resolution. Settlement offers have been made in approximately 25 cases. OST
       management cannot presently determine the outcome of these actions nor the total amount, responsibility,
       and funding source of the potential liability. Any settlement resulting from an adverse outcome of the
       claims described above is not expected to be satisfied with trust fund balances. No amounts have been
       recorded in the accompanying Tribal and Other Trust Funds’ financial statements for potential claims from
       the U.S. Government.

(7)	   Trust Fund Balances
       Trust fund balances are the aggregation of financial assets held in trust and represent the amounts owed to
       beneficiaries as of September 30, 2011 and 2010 for which OST has a fiduciary responsibility.

       The Tribal and Other Trust Funds contain the following trust fund balance categories for U.S. Government
       budget purposes, which are reflected as separate components in the accompanying financial statements:

       •	    Held for Indian tribes – These represent funds held on behalf of Indian tribes. These funds are
             considered non-U.S. Government monies.

       •	    Held by the Department of the Interior and considered to be U.S. Government funds – These
             represent funds, some of which will be transferred to the Held for Indian tribes category provided
             certain conditions are satisfied, and for others, the corpus of the fund may be nonexpendable. These
             funds are considered U.S. Government monies.




                                                        11 	                                             (Continued)
                               TRIBAL AND OTHER TRUST FUNDS

                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                         Notes to Financial Statements
                                         September 30, 2011 and 2010



      A portion of trust fund balances represents estimated payments on production-type leases for which certain
      tribes and individual Indians hold an interest. When certain adjustments to production are identified,
      estimated payments received in excess of production are returned to the depositor or adjusted for in future
      payments.

(8)   Related-Party Transactions with Other Government Organizations
      (a)   U.S. Department of the Interior Bureau of Indian Affairs
            BIA is responsible for the collection of certain monies resulting from the management and use of
            Indian trust lands and other trust resources. Upon receipt, OST records the deposit of trust funds to
            trust accounts based on the information received from BIA.

      (b)   U.S. Department of the Interior Office of Natural Resources Revenue
            For certain trust leases, ONRR is responsible for the collection of royalty payments on behalf of
            Indian tribes and individual Indians holding mineral rights. ONRR deposits the royalty payments
            with the U.S. Treasury and electronically transfers to OST the related accounting information,
            generally the next business day. The accounting information received from ONRR provides OST an
            allocation of 100% tribally owned lease royalties, enabling OST to record trust deposits directly into
            tribal accounts. For tribally/individually co-owned leases, allocation and accounting data is
            forwarded, generally twice a month, to OST via electronic interface through the Mineral Royalty
            Accounting Distribution module that is maintained by BIA. Pursuant to established procedure and
            appropriate authorization, the data is recorded by OST. ONRR and BLM both perform verification
            and other monitoring procedures of mineral assets. Oil and gas companies sometimes forward
            payments to ONRR based on estimated mineral production in order to comply with the Federal Oil
            and Gas Royalty Management Act of 1982 that requires timely distribution of royalties. These
            estimated payments may be disbursed by OST to the beneficiaries. Typically, the oil and gas
            companies adjust future payments for excess or shortfall amounts, if any, based on actual production.

      (c)   Other
            The U.S. Treasury holds cash and certain investments and in certain instances disburses for OST.

            The Department’s Office of the Solicitor serves as legal counsel for OST.




                                                      12                                              (Continued)
                              TRIBAL AND OTHER TRUST FUNDS

                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                         Notes to Financial Statements

                                         September 30, 2011 and 2010 




(9)   Transfers of Trust Funds
      Certain per capita disbursements authorized by tribes result in transfers from the Tribal and Other Trust
      Funds to the Individual Indian Monies (IIM) Trust Funds while certain oil and gas distributions may result
      in transfers to/from the IIM Trust Funds from/to the Tribal and Other Trust Funds. Net transfers of trust
      funds from the Tribal and Other Trust Funds to the IIM Trust Funds totaled approximately $79.8 million
      and $58.0 million during the years ended September 30, 2011 and 2010, respectively. These transfers are
      reflected as disbursements in the accompanying statements of changes in trust fund balances. In addition,
      pursuant to information provided by BIA, OST historically utilized special deposit accounts maintained
      within the IIM Trust Funds for both tribal and IIM beneficiaries as suspense accounts, whereby funds are
      temporarily posted when allocation information is not provided when the funds are received. Following
      receipt of allocation information from BIA, the funds are transferred from the special deposit accounts to
      the designated tribal and/or IIM account(s). Special deposit accounts totaled approximately $23 million
      and $24 million as of September 30, 2011 and 2010, respectively. Substantially all of the special deposit
      account monies held in the IIM Trust Funds relate to historical balances and has not been distributed
      because the ultimate disposition of the funds has not been determined. Since the ultimate disposition is
      unknown at September 30, 2011, the portion attributable to the Tribal and Other Trust Funds is unknown.




                                                      13 

       INDIVIDUAL INDIAN MONIES TRUST FUNDS

 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                    Financial Statements


                September 30, 2011 and 2010

         (With Independent Auditors’ Report Thereon)

                                KPMG LLP
                                Suite 700
                                Two Park Square
                                6565 Americas Parkway NE
                                PO Box 3990
                                Albuquerque, NM 87190




                         Independent Auditors’ Report on Financial Statements


U.S. Department of the Interior Office of the Special Trustee
 for American Indians; and

U.S. Department of the Interior Office of Inspector General:

We have audited the accompanying statements of assets and trust fund balances – modified cash basis of
the Individual Indian Monies Trust Funds managed by the U.S. Department of the Interior Office of the
Special Trustee for American Indians (OST) as of September 30, 2011 and 2010, and the related statements
of changes in trust fund balances – modified cash basis for the years then ended. These financial statements
are the responsibility of management of OST. Our responsibility is to express an opinion on these financial
statements based on our audits.

Except as discussed in the fourth paragraph of this report, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of internal control
over financial reporting of the Individual Indian Monies Trust Funds managed by OST. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

As described in note 2, these financial statements were prepared on the modified cash basis of accounting,
which is a comprehensive basis of accounting other than generally accepted accounting principles.

It was not practicable to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of
trust fund balances in the accompanying financial statements as of September 30, 2011 and 2010 due to the
effects of certain parties for whom OST holds assets in trust having filed a class action lawsuit for an
accounting of the individuals’ trust funds. Trust fund balances enter into the determination of financial
position and changes in trust fund balances.

In our opinion, except for the effects on the financial statements of such adjustments, if any, as might have
been determined to be necessary had we been able to apply adequate procedures to determine the fairness
of trust fund balances and related changes in trust fund balances, as discussed in the preceding paragraph,
the financial statements referred to in the first paragraph above present fairly, in all material respects, the
financial position of the Individual Indian Monies Trust Funds managed by OST as of September 30, 2011
and 2010, and the changes in trust fund balances for the years then ended in conformity with the basis of
accounting described in note 2.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
In accordance with Government Auditing Standards, we have also issued our report dated November 10,
2011 on our consideration of internal control over financial reporting and on our tests of compliance with
certain provisions of applicable laws and regulations for the Individual Indian Monies Trust Funds
managed by OST. The purpose of that report is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. That report is an integral part of an audit
performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audits.




November 10, 2011




                                                 2

                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                     Statements of Assets and Trust Fund Balances – Modified Cash Basis
                                         September 30, 2011 and 2010
                                                  (In thousands)


                                Assets                                       2011         2010
Cash and cash equivalents (note 3)                                     $       83,083      55,045
Investments (note 4)                                                          402,737     412,391
Accrued interest receivable                                                     3,178       2,983
              Total assets                                             $      488,998     470,419
                        Trust Fund Balances
Held for individual Indians (notes 7 and 9)                            $      488,998     470,419


See accompanying notes to financial statements.




                                                       3

                         INDIVIDUAL INDIAN MONIES TRUST FUNDS
                   MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                  OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                     Statements of Changes in Trust Fund Balances – Modified Cash Basis
                                   Years ended September 30, 2011 and 2010
                                                     (In thousands)


                                                                             2011         2010
Increases:
   Receipts (note 9)                                                  $       462,743     336,865
   Interest earned on invested funds                                           18,006      19,677
   Gain on disposition of investments, net                                        443         211
                                                                              481,192     356,753
Decreases:
  Disbursements to and on behalf of account holders                          (462,613)    (343,443)
              Increase in trust fund balances, net                             18,579       13,310
Trust fund balances, beginning of year                                        470,419     457,109
Trust fund balances, end of year (notes 7 and 9)                      $       488,998     470,419


See accompanying notes to financial statements.




                                                          4

                          INDIVIDUAL INDIAN MONIES TRUST FUNDS

                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                          Notes to Financial Statements

                                          September 30, 2011 and 2010




(1)   Background and Description of the Trust Funds
      (a)   Overview of the Trust Funds
            Establishment and Management of the Trust Funds – The legislation that authorizes the
            Secretary of the United States Department of the Interior (Secretary) to manage the Individual Indian
            Monies Trust Funds (IIM Trust Funds) recognizes the unique trust relationship that exists between
            the Indian tribes, individual Indians, and the United States Government (U.S. Government).
            Agreements between the U.S. Government and the various Indian tribes, many of these in the form
            of treaties, recognize the sovereignty of tribes. During the course of the United States’ history and
            the U.S. Government’s evolving policies toward individual Indians and Indian tribes, the trust
            relationship has retained characteristics based upon tribal sovereignty. The United States Congress
            has designated the Secretary as the trustee delegate with responsibility for the financial and
            nonfinancial resources held in trust on behalf of American Indian tribes, individual Indians, and
            other trust funds. In carrying out the management and oversight of the Indian trust assets, the
            Secretary has a fiduciary responsibility to ensure monies are received for the use of Indian lands and
            the extraction of natural resources from Indian lands, distribute such monies collected to the
            appropriate beneficiaries, ensure that trust accounts are properly maintained and invested, and ensure
            that accurate and complete reports are provided to the trust beneficiaries in accordance with
            applicable law.

            The balances that have accumulated in the IIM Trust Funds have resulted generally from land use
            agreements, royalties on natural resource depletion, other proceeds derived directly from trust
            resources, receipt of judgment and tribal per capita distributions, settlement of claims, and
            investment income.

            The accompanying financial statements include only the financial assets held in trust by the Office of
            the Special Trustee for American Indians (OST) for trust beneficiaries and do not include: (i) the
            operating account balances of OST (e.g., Fund Balance with Treasury; Property, Plant, and
            Equipment; etc.) or (ii) other Indian trust assets, including but not limited to, Indian lands, buildings,
            or other nonfinancial assets managed by the United States Department of the Interior
            (the Department).

            The Reform Act – The American Indian Trust Fund Management Reform Act of 1994
            (Public Law 103-412) (the Reform Act) authorized the establishment of OST, which is headed by the
            Special Trustee for American Indians (Special Trustee) who reports to the Secretary. Under this
            legislation, the Special Trustee is responsible for oversight, reform, and coordination of the policies,
            procedures, systems, and practices used by various bureaus and offices of the Department, including
            but not limited to OST, the Bureau of Indian Affairs (BIA) (a component of Indian Affairs (IA)), the
            Office of Natural Resources Revenue (ONRR) (formerly, Minerals Management Service/Minerals
            Revenue Management Program), and the Bureau of Land Management (BLM), in managing Indian
            trust assets.




                                                         5                                                (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS

                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                          Notes to Financial Statements
                                          September 30, 2011 and 2010



            Office of the Special Trustee for American Indians – Indian trust assets, including the IIM Trust
            Funds, are primarily managed under the delegated authority of OST and BIA. Management of Indian
            trust assets on behalf of the trust beneficiaries is dependent upon the processing of trust-related
            transactions within certain information systems of the Department, including but not limited to OST,
            BIA, ONRR, and other Departmental bureaus and offices. BIA and other Departmental bureaus and
            offices are responsible for managing the natural resources located within the boundaries of Indian
            reservations and trust lands as well as the processing of data regarding the ownership and leasing of
            Indian lands. The allocation of receipts and disbursements by OST to trust beneficiaries are
            significantly dependent and reliant upon the receipt of timely and accurate information derived from
            records maintained by BIA, ONRR, and other Departmental bureaus and offices (see note 8).

            Regional Offices – OST and BIA maintain staff at regional offices located throughout the United
            States.

            Agency and Field Offices – OST and BIA also maintain staff at agency and field offices located
            throughout the United States, which are generally located near the tribes and individual Indians
            served. OST and BIA personnel located at most of the agency and field offices perform various
            functions related to trust fund activities.

      (b)   Description of the Trust Funds
            The IIM Trust Funds are comprised of approximately 384,000 and 381,000 accounts, held primarily
            for the benefit of individual Indian account holder beneficiaries and tribal entities, as of
            September 30, 2011 and 2010, respectively. Included within the IIM Trust Funds are certain special
            deposit accounts that are subject to legal, regulatory, budgetary, court-ordered, or other restrictions
            that may ultimately result in funds being distributed to tribal and/or other entities.

            The IIM Trust Funds are primarily funds on deposit for individual Indians with a beneficial interest
            in those funds. IIM account holders realize receipts primarily from land use agreements, royalties on
            natural resource depletion, other proceeds derived directly from trust resources, judgment and tribal
            per capita distributions, settlement of claims, and investment income.

      (c)   Investment of Trust Funds
            Authorizing legislation and a substantial body of case law specify how Indian trust funds should be
            managed and which financial instruments constitute appropriate investments for Indian trust funds.
            The IIM Trust Funds are pooled and invested in U.S. Government securities, including
            U.S. Department of the Treasury (U.S. Treasury) issues, U.S. Government agency issues, and
            U.S. Government-sponsored entity issues.

(2)   Summary of Significant Accounting Policies
      (a)   Basis of Accounting
            OST uses the cash basis of accounting with certain modifications for the IIM Trust Funds, which is a
            comprehensive basis of accounting other than generally accepted accounting principles. Receipts are

                                                        6                                              (Continued)
                    INDIVIDUAL INDIAN MONIES TRUST FUNDS

              MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

             OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                    Notes to Financial Statements
                                    September 30, 2011 and 2010



      recorded when received with the exception of interest earned on invested funds (including discount
      accretion and premium amortization), and disbursements are recorded when issued. Investments are
      stated at amortized cost. Accrual adjustments to reflect interest earned but not received, and to record
      any applicable accretion of discounts and amortization of premiums over the terms of the
      investments, have been recorded in the accompanying financial statements. Interest income reported
      in the statements of changes in trust fund balances reflects interest earned, net of any premium
      amortization or discount accretion recognized during the fiscal year.

(b)   Cash and Cash Equivalents
      Management considers all highly liquid financial instruments with maturities of three months or less
      when purchased to be cash equivalents.

(c)   Investments
      Investment securities at September 30, 2011 and 2010 consist of U.S. Treasury issues,
      U.S. Government agency issues, and U.S. Government-sponsored entity issues. IIM Trust Funds are
      pooled and invested. Investment securities are recorded at amortized cost, adjusted for the
      amortization or accretion of premiums or discounts. Premiums and discounts are amortized or
      accreted over the expected life of the related investment security as an adjustment to yield using the
      effective-interest method. Investment income is recognized when earned.

      The IIM Trust Funds are invested in U.S. Government securities, as mandated by 25 USC 162a.

(d)   Fair Value Measurements
      Financial Accounting Standards Board’s Accounting Standards Codification (ASC) Topic 820, Fair
      Value Measurements and Disclosures (ASC Topic 820), establishes an authoritative definition of fair
      value, sets out a framework for measuring fair value, and requires additional disclosures about fair
      value measurements. ASC Topic 820 applies only to fair value measurements already required or
      permitted by other accounting standards and does not impose requirements for additional fair value
      measures. Since the IIM Trust Funds use the cash basis of accounting with certain modifications (see
      note 2(a)), ASC Topic 820 only affects note disclosures related to fair value.

(e)   Receipts
      Receipts from various leasing activities, mineral royalties and sales of extracted minerals, timber and
      other forest products, fees and fines, and the granting of easements are generated from a variety of
      nonfinancial assets that are held in trust by the U.S. Government and managed by BIA and other
      Departmental bureaus and offices on behalf of individual Indians. Receipts on hand at the regional
      and agency offices, and/or in-transit at September 30, 2011 and 2010, if any, awaiting deposit to the
      U.S. Treasury, are not included in the accompanying financial statements.

      Receipts also include payments from the U.S. Government for judgment awards and the settlement
      of claims.


                                                  7                                               (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS

                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                         Notes to Financial Statements
                                         September 30, 2011 and 2010



      (f)   Disbursements
            Payments disbursed from the IIM Trust Funds consist of accumulations of funds from various
            income-producing activities such as leasing, royalty receipts, mineral extraction, timber and other
            forest product sales, judgment awards, tribal per capita distributions, settlement of claims, and
            investment income.

      (g)   Use of Estimates
            The preparation of the financial statements and footnotes requires management to make estimates
            and assumptions that affect the reported amounts of assets at the date of the financial statements and
            the reported amounts of increases and decreases in trust fund balances during the reporting period.
            Actual results could differ from those estimates.

      (h)   Subsequent Events
            Subsequent events are evaluated by management through the date that the financial statements are
            available to be issued, which is November 10, 2011.

(3)   Cash and Cash Equivalents
      Cash equivalents of approximately $68 million and $42 million at September 30, 2011 and 2010,
      respectively, consist of overnight investments with the U.S. Treasury.




                                                       8                                              (Continued)
                           INDIVIDUAL INDIAN MONIES TRUST FUNDS

                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                         Notes to Financial Statements

                                         September 30, 2011 and 2010




(4)   Investments
      The amortized cost, gross unrealized holding gains, gross unrealized holding losses, and fair value of
      investment securities by major class of security at September 30 were as follows (amounts exclude
      investments in U.S. Treasury overnight securities discussed in note 3):

                                                                    Gross              Gross
                                                   Amortized      unrealized         unrealized
                                                     cost        holding gains     holding losses     Fair value
                                                                          (In thousands)
      September 30, 2011:
        U.S. Treasury and agency
           securities                          $      260,684          18,952                  (63)      279,573
        U.S. government entity issued
           mortgage-backed securities                 142,053             9,239                 —        151,292
                                               $      402,737          28,191                  (63)      430,865

      September 30, 2010:
        U.S. Treasury and agency
           securities                          $      237,648          13,711                  (75)      251,284
        U.S. government entity issued
           mortgage-backed securities                 174,743          12,308                   —        187,051
                                               $      412,391          26,019                  (75)      438,335


      The investments above held by the IIM Trust Funds at September 30, 2011 and 2010 consist of fixed
      income securities, some of which are mortgaged-backed debt securities, issued by the U.S. Treasury,
      U.S. Government agencies, or U.S. Government-sponsored entities. All of these securities are either
      explicitly or implicitly backed by the U.S. Government. Given the backing by the U.S. Government,
      current market conditions have not had a significant adverse impact on the fair value of these securities.

      Maturities of investment securities were as follows at September 30, 2011:
                                                                                  Amortized
                                                                                    cost            Fair value
                                                                                         (In thousands)
      Due in one year or less                                             $              —                 —
      Due after one year through five years                                           36,245            38,022
      Due after five years through ten years                                          92,966            98,429
      Due after ten years                                                            273,526           294,414
                                                                          $          402,737           430,865




                                                       9                                               (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS

                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                          Notes to Financial Statements

                                          September 30, 2011 and 2010




(5)   Fair Value Disclosure Measurements
      ASC Topic 820 defines fair value as the price that would be received from the sale of an asset or paid to
      transfer a liability (an exit price) in an orderly transaction between market participants on the measurement
      date in the principal or most advantageous market for the asset or liability. For measuring fair value,
      ASC Topic 820 establishes a hierarchy that places the highest priority on unadjusted quoted market prices
      in active markets for identical assets or liabilities (Level 1 measurements), and the lowest priority on
      unobservable inputs (Level 3 measurements). The three levels of inputs within the fair value hierarchy are
      defined as follows:

            Level 1: Quoted prices (unadjusted) for identical assets or liabilities in active markets that the IIM
            Trust Funds have the ability to access as of the measurement date.

            Level 2: Significant other observable inputs other than Level 1 prices such as quoted prices for
            similar assets or liabilities; quoted prices in markets that are not active; or other inputs that are
            observable or can be corroborated by observable market data.

            Level 3: Significant unobservable inputs that reflect the IIM Trust Funds’ own assumptions about the
            assumptions that market participants would use in pricing an asset or liability.

      In many cases, a valuation technique used to measure fair value includes inputs from multiple levels of the
      fair value hierarchy. The lowest level of significant input determines the placement of the entire fair value
      measurement in the hierarchy.

      The carrying value of cash and cash equivalents and accrued interest receivable reflected in the statements
      of assets and trust fund balances approximates fair value, which is valued using Level 1 inputs.

      All of the investment securities held by the IIM Trust Funds at September 30, 2011 and 2010 are valued
      using Level 2 inputs. The fair value of investment securities disclosed in note 4 represents the best estimate
      of prices that the securities could be sold for in the open market as of September 30, 2011 and 2010. Those
      fair values are measured using pricing services, pricing models, or broker quotes. Inputs into the pricing
      models include the securities’ par values, interest rates and maturity dates. If broker quotes are used to
      value investment securities the fair value is estimated as the average of three broker quotes.

      The fair value methods described above may produce fair value disclosures that may not be indicative of
      net realizable value or reflective of future fair values. Furthermore, while management believes that the
      valuation methods used on the IIM Trust Funds are appropriate and consistent with other market
      participants, the use of different methodologies or assumptions to determine the disclosed fair value of
      investment securities could result in a different fair value measurement at the reporting date.

(6)   Contingencies
      Certain parties for whom OST holds funds in trust filed a class action lawsuit in 1996, seeking an
      accounting of their individual trust funds. Although plaintiffs sought $58 billion from the District Court in
      lieu of the accounting, the District Court awarded $456 million. In July 2009 the Court of Appeals reversed
      and vacated that judgment. On December 7, 2009, Attorney General Eric Holder and Interior Secretary
                                                       10                                               (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS

                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                          Notes to Financial Statements
                                          September 30, 2011 and 2010



      Kenneth Salazar announced that the parties had reached a $3.4 billion settlement subject to Congressional
      approval. On December 8, 2010, the President signed H.R. 4783, the Claims Resolution Act of 2010,
      which approved the settlement. A Final Judgment was entered by the Court on August 4, 2011. Six appeals
      of this final judgment have been filed, one of which was voluntarily dismissed on October 20, 2011.
      Neither the settlement, nor any future judgment award, should the settlement fail to be upheld by the Court,
      is expected to be satisfied with individual trust funds. No amounts have been recorded in the
      accompanying IIM Trust Funds’ financial statements for potential claims from the U.S. Government.

(7)   Trust Fund Balances
      Trust fund balances are the aggregation of financial assets held in trust and primarily represent the amounts
      owed to beneficiaries as of September 30, 2011 and 2010 for which OST has a fiduciary responsibility.

      The subsidiary detail of IIM account balances contains approximately 11,600 and 11,300 special deposit
      accounts with balances totaling approximately $23 million and $24 million as of September 30, 2011 and
      2010, respectively. Substantially all of the special deposit account monies held in the IIM Trust Funds
      relates to historical balances and has not been allocated because the allocation information for the funds
      has not been provided by BIA. Since the ultimate allocation is unknown at September 30, 2011, the portion
      attributable to the IIM Trust Funds is unknown.

      The subsidiary detail of IIM account balances contains certain oil and gas holding accounts with balances
      totaling approximately $22.8 million and $17.5 million as of September 30, 2011 and 2010, respectively,
      which have not been distributed to beneficiaries. Upon receipt of the allocation and accounting data, to be
      provided by ONRR and BIA, the monies will be distributed to the proper beneficiaries’ accounts (see
      note 8).

      A portion of trust fund balances represents estimated payments on production-type leases for which certain
      individual Indians and tribes hold an interest. When certain adjustments to production are identified,
      estimated payments received in excess of production are returned to the depositor or adjusted for in future
      payments.

(8)   Related-Party Transactions with Other Government Organizations
      (a)   U.S. Department of the Interior Bureau of Indian Affairs
            BIA is responsible for the collection of certain monies resulting from the management and use of
            Indian trust lands and other trust resources. Upon receipt, OST records the deposit of trust funds to
            trust accounts based on the information received from BIA.




                                                       11                                              (Continued)
                           INDIVIDUAL INDIAN MONIES TRUST FUNDS

                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                                         Notes to Financial Statements
                                         September 30, 2011 and 2010



      (b)   U.S. Department of the Interior Office of Natural Resources Revenue
            For certain trust leases, ONRR is responsible for the collection of royalty payments on behalf of
            Indian tribes and individual Indians holding mineral rights. ONRR deposits the royalty payments
            with the U.S. Treasury and electronically transfers to OST the related accounting information,
            generally the next business day. For tribally/individually co-owned leases and individually owned
            leases, the allocation and accounting data to distribute the monies to the proper IIM account is
            forwarded, generally twice a month, to OST via electronic interface through the Mineral Royalty
            Accounting Distribution module that is maintained by BIA. Pursuant to established procedure and
            appropriate authorization, the data is recorded by OST. ONRR and BLM both perform verification
            and other monitoring procedures of mineral assets. Oil and gas companies sometimes forward
            payments to ONRR based on estimated mineral production in order to comply with the Federal Oil
            and Gas Royalty Management Act of 1982 that requires timely distribution of royalties. These
            estimated payments may be disbursed by OST to the beneficiaries. Typically, the oil and gas
            companies adjust future payments for excess or shortfall amounts, if any, based on actual production.

      (c)   Other
            The U.S. Treasury holds cash and certain investments and in certain instances disburses for OST.

            The Department’s Office of the Solicitor serves as legal counsel for OST.

(9)   Transfers of Trust Funds
      Certain per capita disbursements authorized by tribes result in transfers from the Tribal and Other Trust
      Funds to the IIM Trust Funds while certain oil and gas distributions may result in transfers to/from the IIM
      Trust Funds from/to the Tribal and Other Trust Funds. Net transfers of trust funds to the IIM Trust Funds
      from the Tribal and Other Trust Funds totaled approximately $79.8 million and $58.0 million during the
      years ended September 30, 2011 and 2010, respectively. These transfers are reflected as receipts in the
      accompanying statements of changes in trust fund balances. In addition, pursuant to information provided
      by BIA, OST historically utilized special deposit accounts (see note 7) maintained within the IIM Trust
      Funds for both tribal and IIM beneficiaries as suspense accounts, whereby funds are temporarily posted
      when allocation information is not provided when the funds are received. Following receipt of allocation
      information from BIA, the funds are transferred from the special deposit accounts to the designated tribal
      and/or IIM account(s).




                                                       12 

           TRIBAL AND OTHER TRUST FUNDS

 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

       Independent Auditors’ Report on Internal Control over

     Financial Reporting and on Compliance and Other Matters

                       September 30, 2011

                                 KPMG LLP
                                 Suite 700
                                 Two Park Square
                                 6565 Americas Parkway NE
                                 PO Box 3990
                                 Albuquerque, NM 87190



                   Independent Auditors’ Report on Internal Control over

                 Financial Reporting and on Compliance and Other Matters



U.S. Department of the Interior Office of the Special Trustee
   for American Indians; and
U.S. Department of the Interior Office of Inspector General:

We have audited the statements of assets and trust fund balances – cash basis of the Tribal and
Other Trust Funds as of September 30, 2011 and 2010, and the related statements of changes in
trust fund balances – cash basis for the years then ended, managed by the U.S. Department of the
Interior Office of the Special Trustee for American Indians (OST), and have issued our report
thereon dated November 10, 2011. The objective of our audit was to express an opinion on the
fair presentation of the Tribal and Other Trust Funds Financial Statements. In connection with
our fiscal year 2011 audit, we also considered internal control over financial reporting for the
Tribal and Other Trust Funds managed by OST and tested compliance with certain provisions of
applicable laws and regulations that could have a direct and material effect on the Tribal and
Other Trust Funds Financial Statements.

Summary
Our audit report on the Tribal and Other Trust Funds Financial Statements was qualified because
it was not practicable to extend our auditing procedures sufficiently to satisfy ourselves as to the
fairness of trust fund balances in the Tribal and Other Trust Funds Financial Statements as of
September 30, 2011 and 2010 due to the effects of certain tribal parties for whom OST holds
assets in trust disagreeing with the balances recorded by OST, and/or having requested an
accounting of their trust funds, and of which certain of these parties have filed, or are expected
to file, claims against the United States Government. Trust fund balances enter into the
determination of financial position and changes in trust fund balances.

Our audit report states that the Tribal and Other Trust Funds Financial Statements are prepared
in accordance with a basis of accounting that is a comprehensive basis of accounting other than
generally accepted accounting principles, as described in note 2 to the Tribal and Other Trust
Funds Financial Statements.

Our consideration of internal control over financial reporting was not designed to identify all
deficiencies in the internal control over financial reporting that might be deficiencies, significant
deficiencies or material weaknesses. However, we did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses as defined in the
Internal Control over Financial Reporting section of this report.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
The results of our tests of compliance with certain provisions of laws and regulations disclosed
no instances of noncompliance or other matters that are required to be reported herein under
Government Auditing Standards, issued by the Comptroller General of the United States.

The following sections present an overview of the Tribal and Other Trust Funds Financial
Statements, and discuss our consideration of internal control over financial reporting for the
Tribal and Other Trust Funds managed by OST, our tests of compliance with certain provisions
of applicable laws and regulations for the Tribal and Other Trust Funds managed by OST, and
management’s and our responsibilities.

Overview – Tribal and Other Trust Funds Financial Statements
The United States Congress has designated the Secretary of the United States Department of the
Interior (the Secretary) as the trustee delegate with responsibility for the financial and
nonfinancial resources held in trust on behalf of American Indian tribes and other trust funds. In
carrying out the management and oversight of the Indian trust assets, the Secretary has a
fiduciary responsibility to ensure monies are received for the use of Indian lands and the
extraction of natural resources from Indian lands, distribute such monies collected to the
appropriate beneficiaries, ensure that trust accounts are properly maintained and invested, and
ensure that accurate and complete reports are provided to the trust beneficiaries in accordance
with applicable law.

The American Indian Trust Fund Management Reform Act of 1994 (Public Law 103-412)
(the Reform Act) authorized the establishment of OST, which is headed by the Special Trustee
for American Indians (Special Trustee) who reports to the Secretary. Under this legislation, the
Special Trustee is responsible for oversight, reform, and coordination of the policies, procedures,
systems, and practices used by various bureaus and offices of the Department of the Interior
(Department), including but not limited to OST, the Bureau of Indian Affairs (BIA)
(a component of Indian Affairs (IA)), the Office of Natural Resources Revenue (ONRR),
(formerly, Minerals Management Service/Minerals Revenue Management Program), and the
Bureau of Land Management (BLM), in managing Indian trust assets.

The Tribal and Other Trust Funds are dependent upon the processing of trust-related transactions
within certain information systems of the Department, including but not limited to OST, BIA,
ONRR, and other Departmental bureaus and offices. BIA and other Departmental bureaus and
offices are responsible for managing the natural resources located within the boundaries of
Indian reservations and trust lands as well as the processing of data regarding the ownership and
leasing of Indian lands. The allocation and distribution of receipts and disbursements by OST to
trust beneficiaries are significantly dependent and reliant upon the receipt of timely and accurate
information derived from records maintained by BIA, ONRR, and other Departmental bureaus
and offices.




                                                2

Internal Control over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify all
deficiencies in the internal control over financial reporting that might be deficiencies, significant
deficiencies or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect and correct misstatements on a timely basis. A significant deficiency is a
deficiency, or combination of deficiencies in internal control, that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or combination of deficiencies in internal control, such that there is a
reasonable possibility that a material misstatement of the financial statements will not be
prevented or detected and corrected in a timely basis.

In our fiscal year 2011 audit, we did not identify any deficiencies in internal control over
financial reporting that we consider to be material weaknesses as defined above.

We did however note certain other matters that we have reported to OST management in a
separate letter dated November 10, 2011.

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report
disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards.

We did however note certain other matters that we have reported to OST management in a
separate letter dated November 10, 2011.

Responsibilities
Management’s Responsibilities
The Reform Act requires that the Secretary shall cause to be conducted an annual audit on a
fiscal year basis of all funds held in trust by the U.S. Government for the benefit of an Indian
tribe that are deposited or invested pursuant to the Act of June 24, 1938 (25 U.S.C. 162a).

Management is responsible for the Tribal and Other Trust Funds Financial Statements,
including:

•	 Preparing the financial statements in conformity with the basis of accounting described in
   note 2 to the Tribal and Other Trust Funds Financial Statements;




                                                 3

•	 Establishing and maintaining effective internal control; and

•	 Complying with laws and regulations applicable to the Tribal and Other Trust Funds
   managed by OST.

Auditors’ Responsibilities
Our responsibility is to express an opinion on the fiscal year 2011 and 2010 Tribal and Other
Trust Funds Financial Statements based on our audit. Except as discussed in the fourth
paragraph of our auditors’ report, we conducted our audit in accordance with auditing standards
generally accepted in the United States of America and the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of internal control over financial reporting of the Tribal and Other
Trust Funds managed by OST. Accordingly, we express no such opinion.

An audit also includes:

•	 Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
   statements;

•	 Assessing the accounting principles used and significant estimates made by management;
   and

•	 Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2011 audit, we considered internal control over
financial reporting for the Tribal and Other Trust Funds managed by OST by obtaining an
understanding of the internal controls, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements, but
not for the purpose of expressing an opinion on the effectiveness of the internal control over
financial reporting for the Tribal and Other Trust Funds managed by OST. Accordingly, we do
not express an opinion on the effectiveness of the internal control over financial reporting for the
Tribal and Other Trust Funds managed by OST. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.




                                                 4

As part of obtaining reasonable assurance about whether the fiscal year 2011 Tribal and Other
Trust Funds financial statements are free of material misstatement, we performed tests of the
compliance with certain provisions of laws and regulations for the Tribal and Other Trust Funds
managed by OST, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and
regulations. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws and regulations applicable to the Tribal
and Other Trust Funds managed by OST. However, providing an opinion on compliance with
laws and regulations was not an objective of our audit and, accordingly, we do not express such
an opinion.

                                         *******

This report is intended solely for the information and use of the Department’s management, the
U.S. Department of the Interior Office of Inspector General, Office of Management and Budget,
the U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be
and should not be used by anyone other than these specified parties.




November 10, 2011




                                              5

       INDIVIDUAL INDIAN MONIES TRUST FUNDS

 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR

OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

       Independent Auditors’ Report on Internal Control over

     Financial Reporting and on Compliance and Other Matters 

                       September 30, 2011

                                 KPMG LLP
                                 Suite 700
                                 Two Park Square
                                 6565 Americas Parkway NE
                                 PO Box 3990
                                 Albuquerque, NM 87190



                   Independent Auditors’ Report on Internal Control over

                 Financial Reporting and on Compliance and Other Matters



U.S. Department of the Interior Office of the Special Trustee
   for American Indians; and
U.S. Department of the Interior Office of Inspector General:

We have audited the statements of assets and trust fund balances – modified cash basis of the
Individual Indian Monies Trust Funds (IIM Trust Funds) as of September 30, 2011 and 2010,
and the related statements of changes in trust fund balances – modified cash basis for the years
then ended, managed by the U.S. Department of the Interior Office of the Special Trustee for
American Indians (OST), and have issued our report thereon dated November 10, 2011. The
objective of our audit was to express an opinion on the fair presentation of the IIM Trust Funds
Financial Statements. In connection with our fiscal year 2011 audit, we also considered internal
control over financial reporting for the IIM Trust Funds managed by OST and tested compliance
with certain provisions of applicable laws and regulations that could have a direct and material
effect on the IIM Trust Funds Financial Statements.

Summary
Our audit report on the IIM Trust Funds Financial Statements was qualified because it was not
practicable to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of
trust fund balances in the IIM Trust Funds Financial Statements as of September 30, 2011 and
2010 due to the effects of certain parties for whom OST holds financial assets in trust having
filed a class action lawsuit for an accounting of the individuals’ trust funds. Trust fund balances
enter into the determination of financial position and changes in trust fund balances.

Our audit report states that the IIM Trust Funds Financial Statements are prepared in accordance
with a basis of accounting that is a comprehensive basis of accounting other than generally
accepted accounting principles, as described in note 2 to the IIM Trust Funds Financial
Statements.

Our consideration of internal control over financial reporting resulted in identifying certain
deficiencies, one of which we consider to be a significant deficiency as described in the Internal
Control over Financial Reporting section of this report.

The results of our tests of compliance with certain provisions of laws and regulations disclosed
no instances of noncompliance or other matters that are required to be reported herein under
Government Auditing Standards, issued by the Comptroller General of the United States.

The following sections present an overview of the IIM Trust Funds Financial Statements, and
discuss our consideration of internal control over financial reporting for the IIM Trust Funds




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
managed by OST, our tests of compliance with certain provisions of applicable laws and
regulations for the IIM Trust Funds managed by OST, and management’s and our
responsibilities.

Overview – IIM Trust Funds Financial Statements
The United States Congress has designated the Secretary of the United States Department of the
Interior (the Secretary) as the trustee delegate with responsibility for the financial and
nonfinancial resources held in trust on behalf of individual Indians. In carrying out the
management and oversight of the Indian trust assets, the Secretary has a fiduciary responsibility
to ensure monies are received for the use of Indian lands and the extraction of natural resources
from Indian lands, distribute such monies collected to the appropriate beneficiaries, ensure that
trust accounts are properly maintained and invested, and ensure that accurate and complete
reports are provided to the trust beneficiaries in accordance with applicable law.

The American Indian Trust Fund Management Reform Act of 1994 (Public Law 103-412)
(the Reform Act) authorized the establishment of OST, which is headed by the Special Trustee
for American Indians (Special Trustee) who reports to the Secretary. Under this legislation, the
Special Trustee is responsible for oversight, reform, and coordination of the policies, procedures,
systems, and practices used by various bureaus and offices of the Department of the Interior
(Department), including but not limited to OST, the Bureau of Indian Affairs (BIA) (a
component of Indian Affairs (IA)), the Office of Natural Resources Revenue (ONRR) (formerly,
Minerals Management Service/Minerals Revenue Management Program), and the Bureau of
Land Management (BLM), in managing Indian trust assets.

The IIM Trust Funds are dependent upon the processing of trust-related transactions within
certain information systems of the Department, including but not limited to OST, BIA, ONRR,
and other Departmental bureaus and offices. BIA and other Departmental bureaus and offices are
responsible for managing the natural resources located within the boundaries of Indian
reservations and trust lands as well as the processing of data regarding the ownership and leasing
of Indian lands. The allocation and distribution of receipts and disbursements by OST to trust
beneficiaries are significantly dependent and reliant upon the receipt of timely and accurate
information derived from records maintained by BIA, ONRR, and other Departmental bureaus
and offices.

Internal Control over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify all
deficiencies in the internal control over financial reporting that might be deficiencies, significant
deficiencies or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to



                                                 2

prevent or detect and correct misstatements on a timely basis. A significant deficiency is a
deficiency, or combination of deficiencies in internal control, that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or combination of deficiencies in internal control, such that there is a
reasonable possibility that a material misstatement of the financial statements will not be
prevented or detected and corrected on a timely basis.

In our fiscal year 2011 audit, we consider the following deficiency in internal control over
financial reporting to be a significant deficiency:

Lack of Segregation of Duties over Certain IT Applications
An application developer responsible for making enhancements to the functionality over a
certain IT application was also responsible for testing and migrating changes to the production
environment without those changes being subject to review or monitoring. As such, segregation
of duties was not appropriately enforced. Although informal processes were followed when
making modifications to the respective IT application, procedures that document changes made
to the system and the various phases of the change control processes have not been developed.

Recommendation
We recommend that OST management: (1) develop appropriate policies and procedures for
ensuring segregation of duties including reviews of segregation of duties and access rights on a
periodic basis to ensure that mission critical applications are appropriately monitored and
restricted, and (2) develop a methodology for the effected system that requires the
documentation of all program change activities.

OST Management’s Response
Management agrees with the above finding.

We noted certain other matters that we have reported to OST management in a separate letter
dated November 10, 2011.

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report
disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards.

We did however note certain other matters that we have reported to OST management in a
separate letter dated November 10, 2011.




                                                3

Responsibilities
Management’s Responsibilities
The Reform Act requires that the Secretary shall cause to be conducted an annual audit on a
fiscal year basis of all funds held in trust by the U.S. Government for the benefit of an individual
Indian that are deposited or invested pursuant to the Act of June 24, 1938 (25 U.S.C. 162a).

Management is responsible for the IIM Trust Funds Financial Statements, including:

•	 Preparing the financial statements in conformity with the basis of accounting described in
   note 2 to the IIM Trust Funds Financial Statements;

•	 Establishing and maintaining effective internal control; and

•	 Complying with laws and regulations applicable to the IIM Trust Funds managed by OST.

Auditors’ Responsibilities
Our responsibility is to express an opinion on the fiscal year 2011 and 2010 IIM Trust Funds
Financial Statements based on our audit. Except as discussed in the fourth paragraph of our
auditors’ report, we conducted our audit in accordance with auditing standards generally
accepted in the United States of America and the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of internal control over financial reporting of the IIM Trust Funds
managed by OST. Accordingly, we express no such opinion.

An audit also includes:

•	 Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
   statements;

•	 Assessing the accounting principles used and significant estimates made by management;
   and

•	 Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2011 audit, we considered internal control over
financial reporting for the IIM Trust Funds managed by OST by obtaining an understanding of




                                                 4

the internal controls, determining whether internal controls had been placed in operation,
assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of the internal control over financial
reporting for the IIM Trust Funds managed by OST. Accordingly, we do not express an opinion
on the effectiveness of the internal control over financial reporting for the IIM Trust Funds
managed by OST. We did not test all controls relevant to operating objectives as broadly defined
by the Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether the fiscal year 2011 IIM Trust Funds
financial statements are free of material misstatement, we performed tests of the compliance
with certain provisions of laws and regulations for the IIM Trust Funds managed by OST,
noncompliance with which could have a direct and material effect on the determination of the
financial statement amounts, and certain provisions of other laws and regulations. We limited
our tests of compliance to the provisions described in the preceding sentence, and we did not test
compliance with all laws and regulations applicable to the IIM Trust Funds managed by OST.
However, providing an opinion on compliance with laws and regulations was not an objective of
our audit and, accordingly, we do not express such an opinion.

                                          *******

This report is intended solely for the information and use of the Department’s management, the
U.S. Department of the Interior Office of Inspector General, Office of Management and Budget,
the U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be
and should not be used by anyone other than these specified parties.




November 10, 2011




                                                5

